CASE NO. 20-816

IN THE SUPREME COURT OF THE UNITED STATES

CORECO JA’QAN PEARSON, VIKKI TOWNSEND CONSIGLIO, GLORIA KAY
GODWIN, JAMES KENNETH CARROLL, JASON M SHEPHERD on behalf of the
COBB COUNTY REPUBLICAN PARTY, and BRIAN JAY VAN GUNDY
Applicants,
v.
STATE OF GEORGIA, BRIAN KEMP, in his official capacity as Governor of
Georgia, BRAD RAFFENSPERGER, in his official capacity as Secretary of State
and Chair of the Georgia State Election Board, and DAVID J. WORLEY, REBECCA
N. SULLIVAN, MATTHEW MASHBURN, and ANH LE, in their official capacities
as members of the Georgia State Election Board,
Respondents.

STIPULATION OF DISMISSAL
Pursuant to Supreme Court Rule 46.1, Petitioners submit this Stipulation of
Dismissal, showing the agreement of all parties hereto that this case be dismissed,
each party to bear their own costs. Therefore, Petitioners respectfully request that
this case be dismissed.
Respectfully submitted,
/s/ Howard Kleinhendler
HOWARD KLEINHENDLER
New York Bar No. 2657120
Howard Kleinhendler Esquire

SIDNEY POWELL
Counsel of Record
Texas Bar No. 16209700
Sidney Powell, P.C.

369 Lexington Avenue, 12th Floor
New York, New York 10017
(917) 793-1188
howard@kleinhendler.com

2911 Turtle Creek Blvd., Suite 300
Dallas, Texas 75219
(517) 763-7499
sidney@federalappeals.com

HARRY W. MACDOUGALD
Georgia Bar No. 463076
Caldwell, Propst & DeLoach, LLP
Two Ravinia Drive, Ste 1600
Atlanta, Georgia 30346
(404) 843-1956
hmacdougald@cpdlawyers.com
Counsel for Petitioners
/s Andrew Alan Pinson
Mr. Andrew Alan Pinson
Georgia Office of the Attorney General
40 Capitol Square SW
Atlanta GA 30334
apinson@law.ga.gov
Counsel for Brian Kemp, Governor of the State of Georgia, Brad Raffensperger,
Secretary of State, and David J. Worley, Rebecca N. Sullivan, Matthew Mashburn,
and Anh Le, in their official capacities as members of the Georgia State Election
Board.
/s Halsey G. Knapp
Halsey G. Knapp
Georgia Bar No. 425320
Krevolin & Horst LLC
1201 W. Peachtree Street NW Suite 3250
One Atlantic Center
Atlanta GA 30309
sparks@khlawfirm.com
Counsel for Intervenor Defendants DSCC, DCCC and Democratic Party of Georgia,
Inc.
Date: January 19, 2021
3

2

